la
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-20239
GUADALUPE A. WELSH
Plaintiff - Appellant
v.
FORT BEND INDEPENDENT SCHOOL DISTRICT,
Defendant - Appellee
Appeal from the United States District Court
for the Southern District of Texas
(Filed Oct. 30, 2019)
Before DAVIS, SMITH, and, HIGGINSON, Circuit
Judges.
STEPHEN A. HIGGINSON, Circuit Judge:
Appellant, Guadalupe A. Welsh (“Appellant” or
“Ms. Welsh”), alleges that her employer, Appellee
Fort Bend Independent School District (“Appellee” or
“FBISD”), discriminated against her and retaliated
against her when she complained of said discrimina­
tion. Welsh brought her claims under Title VII and the
Age Discrimination in Employment Act (“ADEA”) for
discrimination on the basis of her national origin, sex,

2a
and age. The district court granted summary judgment
in favor of FBISD. We affirm.
I
On August 15, 2012, Welsh filed a complaint with
the Equal Opportunity Commission (“EEOC”) alleging
that FBISD discriminated against her on the basis of
her national origin, sex, and age; subjected her to a
hostile work environment; and retaliated against her.
The EEOC issued a right-to-sue letter in June 30,
2014, signaling that Welsh had exhausted her admin­
istrative remedies. Welsh sued in state court on Sep­
tember 29, 2014. That suit was dismissed as timebarred on January 9, 2015.
One week after her state lawsuit was dismissed,
Welsh filed a second complaint against FBISD with
the EEOC. Welsh made the same allegations, but she
supplemented her complaint with additional factual
details that were “representative of the continuous re­
taliation” she alleged, she suffered after filing her first
EEOC complaint. The EEOC issued another rightto-sue letter on May 12, 2015, at which time Welsh
brought the instant suit. The district court granted
FBISD’s motion for summary judgment, holding that
res judicata barred Welsh’s claims. Welsh appealed
that decision to this court, and this court vacated the
district court’s decision and remanded. On remand, the
district court reached the merits of Welsh’s claims. The
district court granted summary judgment in favor of
FBISD because, among other reasons, Welsh could not

3a
prove that FBISD took any adverse employment action
against her.
II
Welsh is a long-time teacher at FBISD. Welsh be­
gan working for FBISD in 1971 and has been employed
by FBISD at all times relevant to this lawsuit. At the
time the lawsuit was filed, Welsh was still an aquatic
science teacher at Dulles High School.
This court has previously articulated the incidents
that Welsh contends form the basis for her employ­
ment discrimination and retaliation claims as follows:
(1) On April 3, 2014 she was placed under
“Teacher in Need of Assistance” (“TINA”) Plan
for reasons that were fabricated;
(2) On April 29, 2014, she received a Profes­
sional Development and Appraisal System,
Summative Annual Report (“PDAS”), which
stated that she had been placed on a TINA
Plan and FBISD “would not remove the dis­
paraging memoranda”;
(3) On July 9, 2014, Welsh requested a letter
of recommendation from the principal but re­
ceived no response;
(4) During “the Fall semester of 201[3],”1
FBISD deliberately failed to provide her with
accommodation information for her students
1 Although Appellant’s EEOC complaint refers to the fall se­
mester of “2014”, Appellant intended to refer to 2013.

4a
as a means of fabricating another reprimand
against her;
(5) On September 16, 2014, Welsh filed a
grievance requesting that the TINA Plan be
removed from her file, that all mentions of the
grievance be removed from her file, and that
the school comply with PDAS standards; and
(6) On December 19, 2014, Allison Pike
“made humiliating remarks” to Welsh in front
of others.
Welsh v. Fort Bend Ind. Sch. Dist., 860 F.3d 762, 764
(5th Cir. 2017). We briefly explore the details underly­
ing each of these incidents.
A
Welsh alleges that the discrimination against her
began in the fall of 2013. One of Welsh’s students re­
quired special education services. However, Welsh
claims that she did not receive a copy of the student’s
individualized education plan (“IEP”), which describes
the accommodations required by the student. As a
result, Welsh alleges she did not know what accommo­
dations the student required.2 Because the student
did not receive proper accommodations, the student’s
2 Although Welsh did not raise the point before the district
court, Welsh now alleges that she was “reprimanded for allegedly
making improper notations about activities in addition to codes
on the district’s accommodations and modifications logs.” Because
this argument was not preserved before the district court, and be­
cause Welsh has not properly explained her argument on this is­
sue, we decline to entertain it.

5a
academic performance suffered and the student’s par­
ents complained. Upon receiving the complaint, Dr. Terra
Smith, an associate principal at FBISD, began investi­
gating the parents’ concerns. Dr. Smith explained to
Welsh, in a detailed letter, her conclusion that Welsh
was aware of the need for accommodations and failed
to properly document the student’s special educa­
tion needs. Dr. Smith’s letter also documented various
other transgressions: (1) Welsh failed to respond to
emails from a parent of an IEP student; (2) Welsh
failed to timely respond to an oral request from a par­
ent; (3) Welsh failed to respond to Dr. Smith explaining
why she assigned a student to detention. After follow­
ing up with two additional letters, and “[i]n accordance
with District policy,” Dr. Smith placed Welsh on a
Teacher In Need of Assistance Plan (“TINA”). In the
course of these discussions, Welsh also responded with
the rebuttal letters attempting to explain or deny the
alleged transgressions.
The TINA required Welsh to attend an hour and
forty minutes of training on the areas where she
needed improvement, namely how to implement and
document IEPs. Following this training program,
Welsh’s accommodation logs were monitored by super­
visors. Welsh completed the TINA successfully. The
TINA ended on March 17,2014, one month after it was
implemented.
A reference to Welsh’s successful completion of the
TINA was included in Welsh’s 2013-2014 annual re­
view. The entry on her review read: “Mrs. Welsh was on
a [TINA] from February 17, 2014 to March 17, 2014.

6a
The TINA was successfully completed by March 17,
2014.” Welsh was unhappy with this notation and filed
an administrative grievance with FBISD requesting
that the reference to the TINA be removed. An assis­
tant superintendent, Xochitl Rodriguez, reviewed and
investigated Welsh’s grievance. Rodriguez denied
Welsh’s request to remove reference to the TINA after
concluding that there was evidence that supported the
TINA.
B
On July 9, 2014, Welsh requested a recommenda­
tion letter from her campus principal, Mr. Edwards.
Welsh admitted at deposition that she requested this
recommendation letter during a conversation in a hall­
way. Soon after, Welsh emailed Edwards with a written
request for a recommendation letter. Welsh never re­
ceived a recommendation letter or a response to her
request, but she concedes that she never followed up to
remind Edwards about her request.3
C

Because Welsh is an aquatic science teacher, she is
responsible for maintaining 14 to 15 tanks of fish in
her classroom, caring for the fish, and feeding the fish.
3 For the first time on appeal, Welsh also claims that she re­
quested a recommendation letter from Dr. Faust. We do not en­
tertain Welsh’s new factual assertion, which was not raised in her
EEOC complaint, state court complaint, or at any time before the
district Court.

7a
On December 19, 2014, as faculty departed for the end
of the semester, an associate principal, Allison Pike,
made a statement that Welsh contends humiliated her.
Pike told Welsh, in front of other coworkers, “Ms. Welsh
[sic], you need to take care of your fish.” Welsh appears
to have concluded that Pike was criticizing Welsh’s
work ethic by implying that Welsh should not rely on
FBISD’s maintenance staff to feed the fish during the
winter break. Welsh hypothesizes that, because Pike is
younger, Pike decide to “poke fun at her.”
D
At the time she was deposed in April 2018, Welsh
remained employed as a teacher at FBISD. Indeed,
Welsh’s salary increased after the events described
above. Although Welsh applied for various administra­
tive positions in FBISD before 2013, she developed the
“mind-set” that she was incapable of being promoted to
these roles following the incidents described above.
Therefore, Welsh stopped applying to these roles and
has not applied to any of these roles since before 2013.
Ill
“This court reviews a district court’s grant of
summary judgment de novo, applying the same legal
standards as the district court.” Tradewinds Envtl.
Restoration, Inc. v. St. Tammany Park, LLC, 578 F.3d
255, 258 (5th Cir. 2009) (quoting Condrey v. SunTrust
Bank Ga., 429 F.3d 556,562 (5th Cir. 2005)). “Summary
judgment is appropriate when ‘the movant shows that

8a
there is no genuine dispute as to any material fact and
the movant is entitled to judgment as a matter of law.
United States v. Nature's Way Marine, L.L.C., 904 F.3d
416,419 (5th Cir. 2018) (quoting F. R. Civ. R 56(a)). The
court reviews all evidence in the light most favorable
to the non-moving party. Matsushita Elec. Indus. Co. v.
Zenith Radio Corp., 475 U.S. 574, 587 (1986).

5 55

IV
Welsh bases her discrimination claim on circum­
stantial rather than direct evidence. Therefore, Welsh
must prove that she: (1) is a member of a protected
group; (2) was qualified for the position at issue; (3) suf­
fered some adverse employment action by the employer;
and (4) was treated less favorably than other similarly
situated employees outside the protected group. See
McCoy v. City of Shreveport, 492 F.3d 551, 556 (5th Cir.
2007); Bienkowski v. Am. Airlines, Inc., 851 F.2d 1503,
1504-05 (5th Cir. 1988). If Welsh carries this burden, the
burden then shifts to FBISD to articulate a legitimate,
non-discriminatory rationale for its actions. McCoy, 492
F.3d at 557. If FBISD meets this burden, the burden
shifts back to Welsh to show that there is a genuine
question of material fact precluding summary judg­
ment on the basis of FBISD’s stated rationales. See id.
Here, FBISD has never contested that Welsh is a
member of each of the protected classes she alleges
(race, sex, national origin). FBISD also has never con­
tested that Welsh us qualified for the position she
holds. Welsh, therefore, satisfies the first two prongs of

9a
the test. FBISD argues that Welsh’s claim falters on the
third prong because Welsh cannot prove that FBISD
imposed an adverse employment action. We agree.
A
“Adverse employment actions include only ulti­
mate employment decisions such as hiring, granting
leave, discharging, promoting, or compensating.” Mc­
Coy, 492 F.3d 551 (5th Cir. 2007). “[A]n employment ac­
tion that ‘does not affect job duties, compensation, or
benefits’ is not an adverse employment action.” Pegram
v. Honeywell, Inc., 361 F.3d 272, 282 (5th Cir. 2004)
(quoting Banks v. E. Baton Rouge Parish Sch. Bd., 320
F.3d 570, 575 (5th Cir. 2003)). While a “mere ‘loss of
some job responsibilities’ does not constitute an ad­
verse employment action,” Williams v. U.S. Dep’t of
Navy, 149 F. App’x 264, 269-70 (5th Cir. 2005), in cer­
tain cases, “a change in or loss of job responsibilities
. . . may be so significant and material that it rises to
the level of an adverse employment action,” Thompson
v. City of Waco, Tx., 764 F.3d 500, 504 (5th Cir. 2014)
(collecting cases).
Certain of our cases have held that “reprimands”
can constitute adverse employment actions, but mere
“criticism” cannot. Compare Breaux v. City of Garland,
205 F.3d 150,157 (5th Cir. 2000) with Harrington, 118
F.3d at 366 and Benningfield v. City of Houston, 157
F.3d 369, 377 (5th Cir. 1998). Other cases have held
that “reprimands [ ] do not constitute ultimate employ­
ment decisions.” See Green v. Adm’rs of the Tulane

10a
Educ. Fund, 284 F.3d 642,657-58 (5th Cir. 2002), abro­
gated on other grounds by Burlington N. & Santa Fe
Ry. Co. v. White, 548 U.S. 53 (2006); see also Washington
v. Veneman, 109 Fed. App’x 685, 689 (5th Cir. 2004).
However, we need not reach the question of
whether reprimands are properly viewed as constitut­
ing adverse employment actions because Welsh never
received a reprimand. Instead, Welsh was placed in a
growth plan that sought to improve upon her weak­
nesses. 19 Tex. Admin. Code §150.1004. According to
Dr. Smith, the TINA was an effort to improve Welsh’s
job performance. An employer’s decision to place an
employee on a performance improvement plan is not
an adverse employment action. Turner u. Novartis
Pharma. Corp., 442 F. App’x 139, 141 (5th Cir. 2011)
(holding that placing an employee on a performance
improvement plan is “not an ultimate employment de­
cision.”) Even if the TINA is characterized as a poor
performance review, Welsh has failed to allege an ad­
verse employment action. Mattern v. Eastman Kodak
Co., 104 F.3d 702, 708 (5th Cir. 1997) (holding that “dis­
ciplinary filings, supervisor’s reprimands, and .. . poor
performance by the employee” do not constitute ad­
verse employment actions), abrogated on other grounds
by Burlington N. & Santa Fe Ry. Co., 548 U.S. 53; Doug­
las v. DynMcdermott Petroleum Operations, Co., 144
F.3d 364,373 n.ll (5th Cir. 1998) (low performance rat­
ings not considered adverse employment actions).
The TINA and associated record of the TINA in
Welsh’s file also did not result in a material loss of job
responsibilities. See Thompson, 764 F.3d at 504. FBISD

11a
did not revoke any of Welsh’s privileges or responsibil­
ities; FBISD did not transfer or demote Welsh; and
Welsh’s title, hours, salary, and benefits did not suffer
as a result of the TINA.4
Welsh contends that having a TINA in her record
hindered her opportunity for promotion within FBISD.
She points to no facts to support this claim. Welsh was
placed on the TINA plan on February 17,2014. The last
time Welsh applied for a promotion to an administra­
tive role at FBISD was “before 2013.” This means that
Welsh has failed to identify any tangible job applica­
tion that was negatively impacted by the TINA.
Welsh contends that having a TINA in her record
creates a bar to promotion, which discouraged her
from applying for a promotion at all. Welsh’s claim is
unsupported by the record. In Texas, principals are
hired using certain statutory criteria, including: (1) in­
structional leadership; (2) administration, supervision,
and communication skills; (3) curriculum and instruc­
tion management; (4) performance evaluation; (5) or­
ganization; and (6) fiscal management. Tex. Educ. Code
§ 21.046(b)(l)-(6). Performance evaluations, then, are
just one of several criteria used when making promo­
tion decisions. And, other than the TINA, Welsh has
received positive performance reviews. Welsh’s sole
piece of evidence that a TINA bars her from future pro­
motions is a single quote taken from Dr. Smith’s
4 Although Welsh speculates that she would have earned
more money but for the TINA, her assertion is rebutted by uncon­
tradicted testimony from Dr. Smith that compensation at FBISD
is based solely on years of experience rather than performance.

12a
deposition testimony. Dr. Smith agreed that a TINA
would not “be a good thing for a teacher to have ... in
their record” and that she “wouldn’t want a TINA in
[her] record” “because [she] would have to explain why
[she] ha[s] a TINA in [her] record” “[t]o anyone that
would ask.” Dr. Smith also emphasized that whether
an applicant has been placed in a TINA “may or may
not” come up during an interview, depending on the
specific campus’ hiring practices and that she had
never inquired about whether a potential candidate
had been placed on a TINA. The mere fact that FBISD
might require an applicant to explain a TINA does not
approach a bar to promotion. Dallis u. Rubin, 77 F.3d
777, 781-82 (5th Cir. 1995) (“Title VII was designed to
address ultimate employment decisions. Not to ad­
dress every decision made by employers that arguably
might have some tangential effect upon those ultimate
decisions.”) Even if it did, Welsh has still failed to iden­
tify a position to which she applied or was discouraged
from applying after she was placed on the TINA.
For these reasons, FBISD’s decision to place Welsh
on the TINA, FBISD’s performance review of Welsh,
and FBISD’s refusal to remove reference to the TINA
in the performance review are not activities that can
form the basis for a viable discrimination claim.
B
Welsh also argues on appeal that Dr. Edward’s
failure to provide her with a recommendation letter
constituted an adverse employment action. Welsh made

13a
one written request for a recommendation letter from
Dr. Edwards. Welsh did not receive a response to this
request, but also did not follow up with Dr. Edwards to
remind him of the request. Welsh asserts that recom­
mendation letters are necessary for advancement with
FBISD. Welsh’s suggestion that Dr. Edwards intention­
ally refused to respond to her request for a recommen­
dation letter is speculative, however. It is just as
reasonable to conclude that Dr. Edwards inadvertently
overlooked Welsh’s single email or forgot about Welsh’s
request. Unsupported speculation does not create a
genuine issue of material fact. See Grissom u. Patter­
son, 14 F.3d 52, 1993 WL 560256, at *2 (5th Cir. 1993)
(holding that unsupported speculation does not create
a genuine issue of material of fact); see also Little v.
Liquid Air Corp., 37 F.3d 1069, 1075 (5th Cir. 1994)
(per curiam) (en banc) (holding that a mere scintilla of
evidence does not create a genuine issue of material
fact).
C
Finally, Welsh contends that Pike humiliated her
when she told Welsh to “feed [her] fish” during the win­
ter break. Welsh argues that Pike’s command consti­
tuted an adverse employment action. Title VII “does
not set forth ‘a general civility code for the American
workplace.’”BurlingtonN. & Santa FeRy. Co., 548 U.S.
at 68 (quoting Oncale u. Sundowner Offshore Servs.,
Inc., 523 U.S. 75, 80 (1998)). This court has previously
held that “allegations of unpleasant work meetings,
verbal reprimands, improper work requests, and unfair

14a
treatment do not constitute actionable adverse em­
ployment actions as discrimination or retaliation.”
King v. Louisiana, 294 Fed. App’x 77,85 (5th Cir. 2008).
At best, Welsh’s humiliation as a result of Pike’s com­
ment is an unpleasant workplace experience, not an
adverse employment action.
D
Because Welsh cannot identify any adverse em­
ployment action, she has not met her initial burden.
For these reasons we AFFIRM to the district court’s
grant of summary judgment in favor of FBISD with re­
spect to Welsh’s employment discrimination claim.
V
Welsh asserts a retaliation claim against FBISD
based on many of the same allegations underlying her
discrimination claim. For the same reasons articulated
by the district court, we agree that Welsh’s retaliation
claim fails as a matter of law. Hence, we AFFIRM the
district court’s summary judgment ruling in favor of
FBISD on Welsh’s retaliation claim.
A litigant who alleges retaliation from allega­
tions of discrimination in the workplace must estab­
lish (1) that he or she engaged in activity protected
by Title VII; (2) that the employer took adverse action
against him or her; (3) that a casual connection exists
between the protected activity and the adverse ac­
tion. Zamora v. City of Houston, 798 F.3d 326, 331 (5th

15a
Cir. 2015). For purposes of Title VII’s anti-retaliation
provision, the Supreme Court has held that an adverse
employment action is defined slightly more broadly
than the term is defined in the employment discrimi­
nation context. Burlington N. & Santa Fe Ry. Co., 548
U.S. at 67-68. Specifically, a plaintiff seeking to estab­
lish a retaliatory adverse employment action “must
show that a reasonable employee would have found the
challenged action materially adverse, which in this
context means it well might have dissuaded a reason­
able worker from making or supporting a charge of dis­
crimination.” Id. (cleaned up).
Title VII’s anti-retaliation provisions do not pro­
tect employees from “petty slights, minor annoyances,
and simple lack of good manners.” Id. However, retali­
atory adverse employment actions also need not rise to
the level of ultimate employment decisions. Id.; Don­
aldson v. CDB Inc., 335 Fed. App’x 494, 506 (5th Cir.
2009). As the district court noted, when determining
whether an allegedly retaliatory action is materially
adverse, courts “look to indicia such as whether the ac­
tion affected ‘job title, grade, hours, salary, or benefits’
or caused ‘a diminution in prestige or change in stand­
ing among . . . co-workers.’ ” Paul u. Elayn Hunt Corr.
Ctr., 666 F. App’x 342, 346 (5th Cir. 2016) (quoting
Stewart v. Miss. Transp. Comm’n, 586 F.3d 321, 332
(5th Cir. 2009)).
Here, there is no dispute that Welsh engaged in
protected conduct when she filed discrimination com­
plaints with the EEOC. The only issues are whether
Welsh has alleged a cognizable adverse employment

16a
action and, if so, whether there is a causal relationship
between the protected activity and the adverse em­
ployment action.
Welsh engaged in protected activity on three occa­
sions. Once in August 2012 when she filed her first
complaint with the EEOC, once in June 2014 when she
amended that complaint, and once in January 2015
when she filed a second complaint with the EEOC. Of
note, there is no evidence in the record that Dr. Smith,
Pike, or Dr. Edwards knew of Welsh’s protected activity
until Welsh revealed it to them in a series of letters in
late 2013.5 Welsh also points to a November 25, 2013
letter she alleges she sent to Dr. Edwards stating that
“I have recently experienced some incidents that have
created a hostile work environment for me.” Welsh al­
leges that she attached to this letter another letter to
the Fort Bend Human Resource Department stating
that she had “concern [s] that discrimination, retalia­
tion and harassment still continues [sic] against me at
this campus.” But neither of these letters was pre­
sented at any deposition or at summary judgment, nei­
ther of these letters refers to the EEOC complaint or
any protected activity, and the allegations contained in
these letters were not pled as part of this lawsuit. For
these reasons, we do not find the letters germane.
6 Welsh speculates that Dr. Faust, the principal at the time
Welsh filed her 2012 complaint, communicated with Dr. Smith
about Welsh’s complaint when Dr. Smith took over Dr. Faust’s
role. There is no evidence to support Welsh’s speculation. Indeed,
Dr. Smith denied having any discussions at all with Dr. Faust
about specific teachers at FBISD.

17a
A
Welsh alleges that being placed on a TINA was a
retaliatory adverse employment action. We need not
decide whether the TINA was retaliatory adverse
employment action because there is no causal relation­
ship between the TINA and Welsh’s protected activi­
ties. This court has repeatedly held that gaps of eight
to ten months between the protected activity and the
alleged adverse employment action break a causal
chain. Atkins v. Cmty. Health Sys., 712 F. App’x 388,
391 (5th Cir. 2017) (eight-to ten-month gap); Bryan v.
Chertoff, 217 F. App’x 289, 293 (5th Cir. 2007) (fourmonth gap insufficient to establish casual nexus where
personnel who suspended plaintiff were unaware of
complaint and legitimate, non-discriminatory rea­
sons undergirded the suspension). Here, Welsh lodged
her EEOC complaint in August 2012. Nineteen months
later, in April 2014, she was placed on a TINA. Thus,
even if the TINA were a retaliatory adverse employ­
ment action (and we do not hold that it is), the ex­
tended gap between the protected activity and the
TINA severs the causal nexus between the two in the
absence of evidence to the contrary.
B
Welsh also alleges that four other incidents consti­
tuted retaliatory adverse employment actions: (1) Dr.
Edwards’s failure to respond to a request for a recom­
mendation letter; (2) Pike’s command that Welsh “feed
[her] fish”; (3) refusal to remove the TINA from Welsh’s

18a
record; and (4) “changing [Welsh’s] curriculum yearly
and giving [Welsh] classes with the ‘at risk and special
needs’ students.”
We have already concluded that the first three of
these accusations do not meet the adverse employment
action standard applicable in the context of the em­
ployment discrimination claims. We similarly hold that
the definition applied to retaliatory adverse employ­
ment actions still does not encompass any of these al­
legations.
We have not yet considered Welsh’s fourth allega­
tion of retaliatory adverse employment action. Welsh
asserts, for the first time on appeal, that changes to the
curriculum and assignment to the classes with “at risk
and special needs” students constituted retaliatory
adverse employment actions. Not only has Welsh for­
feited this argument, but curriculum changes are a re­
ality of being a teacher and Welsh fails to explain how
or why being assigned to work with students who are
“at risk and special needs” is an adverse employment
action. Indeed, a reasonably administrator may decide
to assign only their best teachers to educate students
with “special needs”. Far from being an adverse action,
working with “special needs” students may actually re­
flect well on the teacher assigned to do so.
Welsh identifies no material, factual dispute as to
whether FBISD took a retaliatory adverse employ­
ment action. We affirm the district court’s grant of
summary judgment in favor of FBISD on Welsh’s retal­
iation claim.

19a
VI
Welsh also argues that she was constructively dis­
charged from her position as a teacher at FBISD be­
cause “constructive discharge involves the feeling and
desire to resign.” Welsh’s claim fails as a matter of law.
Constructive discharge occurs when an employee is
forced to involuntarily resign. Haley v. Alliance Com­
pressor LLC, 391 F.3d 644, 649 (5th Cir. 2004) (holding
that constructive discharge occurs when “the employer
deliberately makes an employee’s working conditions
so intolerable that the employee is forced into an invol­
untary resignation” (quoting Jurgens v. EEOC, 903
F.2d 386, 390 (5th Cir. 1990)); see also McCoy, 492 F.3d
at 557-58.
VII
Accordingly, the district court’s decision is AF­
FIRMED in its entirety.

20a
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
GUADALUPE A. WELSH, §
§
§

Plaintiff,
VS.
FORT BEND ISD
SCHOOL DISTRICT,
Defendant.

§ CIVIL ACTION NO.
§ 4:15-CV-1275
§
§
§

MEMORANDUM & ORDER
(Filed Jul. 5, 2018)
This is an employment discrimination and retali­
ation case. Plaintiff Guadalupe Welsh (“Plaintiff” or
“Ms. Welsh”), a teacher who worked for Defendant Fort
Bend Independent School District (“Defendant” or the
“District”), brings claims under Title VILand ADEA for
discrimination on the basis of her national origin, sex,
and age, as well as for retaliation. Pending before the
Court is Defendant’s Motion for Summary Judgment
(“Motion”). (Doc. No. 39).
I.

PROCEDURAL BACKGROUND

At all times relevant to this lawsuit, and still to­
day, Ms. Welsh has worked for the District as a high
school science teacher.
On August 15, 2012, Ms. Welsh filed a charge
with the Equal Employment Opportunity Commission

21a
(“EEOC”) and alleged that the District: (1) discrimi­
nated against her on the basis of her national origin,
gender, and age; (2) subjected her to a hostile work en­
vironment; and (3) retaliated against her. Welsh Dep.
At Exh. 9. On June 19, 2014, Ms. Welsh amended her
charge and stated that she “continue [d] to suffer dis­
crimination and retaliation,” and that the District cre­
ated a hostile work environment. Welsh Dep. at Exh.
10. The EEOC issued a “no cause” right-to-sue letter on
June 30,2014. See Welsh v. Fort Bend Indep. Sch. Dist.,
860 F.3d 762, 763 (5th Cir. 2017). Consistent with her
EEOC charge, Ms. Welsh brough suit in state court on
September 26, 2014 (“Welsh F). On January 9, 2015,
the state trial court ruled for the District and dis­
missed Welsh I as time-barred. Id. at 763-64.
On January 17, 2015, one week after Welsh I was
dismissed, Ms. Welsh filed another EEOC charge
against the District. Welsh Dep. at Exh. 8. Ms. Welsh
again alleged that the District: (1) discriminated
against her on the basis of her national origin, gender
and age; (2) subjected her to a hostile work environ­
ment; and (3) retailed against her. Welsh Dep. at Exh.
8. Welsh made the following allegations as “repre­
sentative of the continuous retaliation I have suffered
since filing my previous Charge of Discrimination and
my Amendment on June 19, 2014”:
•

Fall semester of 20131: The District “con­
sciously failed to provide me with the legally

1 Ms. Welsh’s EEOC charge refers to this as the fall semester
of “2014,” but based on the chronology of events and documenta­
tion of this accommodations issues, the correct year is 2013.

22a
required accommodations for one of my stu­
dents. As such, I was left unaware of the re­
quired accommodations for the student. I had
been previously reprimanded by my employer
for allegedly failing to comply with the Dulles
High School Policy and Procedures for imple­
menting accommodations/modifications for a
special education student... By failing to in­
form me of the 504 Accommodations, my em­
ployer was hoping to fabricate another
reprimand against me.”
•

April 3, 2014: Welsh complained that she was
placed on a “Teacher in Need of Assistance
Plan (TINA)” for “fabricated reasons.”

•

April 29, 2014: “I received a [formal teacher
evaluation] report, that still stated that I had
been placed on a TINA, and my employer
would not remove the disparaging memoran­
dum.”

•

July 9, 2014: Welsh requested, but did not re­
ceive, a letter of recommendation from her
principal for another job in the District.

•

September 16, 2014: A District-internal hear­
ing was conducted on Ms. Welsh’s grievances.
In her grievances, Ms. Welsh requested that
the TINA, and all references to it, be removed
from her file. On October 6, 2014, the District
announced its decision that it did not grant
her the relief she sought.

•

December 19, 2014: “Mrs. Allison Pike made
humiliating remarks to me about my ability
to do my work. Mrs. Pike’s remarks were

23a
made in front of counselors and administra­
tors and concerned information that she could
not have been privy to.”
Welsh Dep. at Exh. 8. The EEOC issued a right-to-sue
letter, and on May 12, 2015, Ms. Welsh brought this
lawsuit (“Welsh IF’). Compl. The Court granted sum­
mary judgment in favor of the District on the ground
that res judicata barred all of Ms. Welsh’s claims. See
Minute Entry, March 30, 2016. The Fifth Circuit va­
cated the decision and remanded the case “[bjecause it
appears that some of Welsh’s claims were not mature
at the time of filing her previous lawsuit.” Welsh, 860
F.3d at 763.
II.

FACTUAL BACKGROUND

Ms. Welsh began her employment as a teacher
with the District in 1971, voluntarily took some time
off to raise children and move overseas with her hus­
band, and then returned to the District. Welsh Dep. at
7-11.
In the fall of 2013, one of Ms. Welsh’s students was
supposed to receive special education services. Welsh
Dep.at Exhs. 2-6. Ms. Welsh claims that she did not re­
ceive a copy of the student’s individualized education
plan (IEP) and, as a result she was not aware of the
accommodations that the student was entitled to re­
ceive. Welsh Dep. at Exh. 8. Ms. Welsh attributes this
to a deliberate plot by the District set her up for failure
so that it could reprimand her. See Welsh Dep. at 66:1968:23. The student’s parent complained about his

24a
academic progress. Welsh Dep. at Exh. 5. As a result of
this complaint, Terra Smith, an associate principal, de­
termined that Ms. Welsh was aware of the need for ac­
commodation and failed to properly document the
student’s special education services. See id. Ms. Smith
noted that Ms. Welsh failed to respond to e-mails from
the parent of an IEP student dated September 26,2013
and October 15, 2013; failed to timely respond to an
oral request from a parent on November 14, 2013; and
failed to respond to Ms. Smith about the reasons for
assigning a student detention on November 22, 2013.
Welsh Dep. at Exh. 5. In accordance with the District
policy, on November 19 and 21, 2013, Ms. Welsh timely
responded to other e-mails from the parent of an IEP
student. Smith Dep. at 59-61; E-mail from Welsh to
Powers (Nov. 21,2013). Ms. Smith placed Ms. Welsh on
a Teacher in Need of Assistance plan (TINA). Welsh
Dep. at Exh. 6. The TINA involved one hour and forty
minutes of training topic such as how to implement
and document IEPs. Id. Ms. Welsh completed the
TINA. Welsh Dep. At Exh. 7.
Ms. Welsh filed and administrative grievance with
the District seeking to have the reference to the TINA
removed from her appraisal. See Welsh Dep. at Exh. 2.
After reviewing the grievance and conducting a hear­
ing, an assistant superintendent, Xochitl Rodriguez,
denied Ms. Welsh’s request, finding that there was
evidence to support the need for the TINA. Id. Dr. Ro­
driguez indicated that Ms. Welsh could appeal her
grievance according to the District policies. Id. Ms.

25a
Welsh did not appeal Rodriguez’s decision to the Dis­
trict’s Board of Trustees. Welsh Dep. at 91:6-21.
Ms. Welsh says that on July 9, 2014, she asked her
campus principal, Ronnie Edwards, for a recommenda­
tion letter, but never received one. Welsh Dep. at 92:37. In her deposition Ms. Welsh explained that her
request was made in passing during a conversation in
a hallway. Id. at 94:16-24. Ms. Welsh also sent an
e-mail to Mr. Edwards on July 10,2014, asking, “Would
you please write a letter of recommendation for me to
place in the district’s online file?” E-mail from Welsh to
Edwards (July 10, 2014). Ms. Welsh believes she was
“blacklisted,” but concedes that it is possible that her
principal simply forgot her request. Welsh Dep. at 93:67; 95:10-13. She never took any further action; “I didn’t
follow through.” Id. at 92:21.
As an aquatic science teacher, Ms. Welsh had 14 to
15 tanks of fish in her classroom and it was her respon­
sibility to care for the fish. Id. at 53:20-54:1. On Decem­
ber 19, 2014, when faculty were checking out for the
semester, one of the associate principals at Dulles, Al­
lison Pike, purportedly “yelled” to Ms. Welsh, in front
of other coworkers, “Ms. Welsh [sic], you need to take
care of your fish.”/<f. at 53:5-7. Ms. Welsh inferred from
this statement that Ms. Pike did not want Ms. Welsh
to rely in the District’s maintenance staff to feed the
fish. Id. at 53:7-8. Ms. Welsh was humiliated and hy­
pothesizes that, because Ms. Pike is younger than
Ms. Welsh, Ms. Pike decided to “poke fun at her.” Id. at
55:8-12.

26a
Prior to 2013, Ms. Welsh had applied for principalship positions in the District, but after the events de­
scribed above occurred, Ms. Welsh had a “mind-set”
that she was never going to be promoted to a principal
or assistant superintendent position in the District
and did not continue to apply. Id. at 101:10-103:17.
Ms. Welsh remains employed at Dulles as a
teacher today and her salary has increased since the
events of 2014. Id. at 21:14-16, 57: 9-24. The salary in­
crease is based on years of experience. Smith Dep. at
89:14-16.
III. LEGAL STANDARD
“The court shall grant summary judgement if the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to judg­
ment as a matter of law.” Fed. R. Civ. P. 56(a). A genuine
dispute of material fact exists only if the evidence
would allow a reasonable jury to return a verdict for
the nonmoving party. Rogers v. Bromac Title Serus.,
L.L.C., 755 F.3d 347, 350 (5th Cir. 2014). While the
Court construes facts and inferences in the light most
favorable to the nonmoving party, that party may not
thwart summary judgment with “ ‘conclusional allega­
tions, unsupported assertions, or presentation of only
a scintilla of evidence’” Id. (quoting McFaul v. Valen­
zuela, 684 F.3d 564, 571 (5th Cir .2012)).

27a
IV. ANALYSIS
a. Discrimination
All three protected characteristics on which Ms.
Welsh bases her discrimination claims—national ori­
gin, sex, and age—are analyzed under the McDonnell
Douglas burden-shifting framework. To establish a
prima facie case of age, national origin, or sex discrim­
ination Ms. Welsh must prove that she: (1) is a member
of a protected group; (2) was qualified for the position
at issue; (3) suffered some adverse employment action
by the employer; and (4) was treated less favorably
than other similarly situated employees outside the
protect group. See McCoy v. City of Shreveport, 492
F.3d 551, 556 (5th Cir. 2007) (race and sex discrimina­
tion); Bienkowski v. American Airlines, Inc., 851 F.2d
1503, 1504-05, (5th Cir. 1988) (age discrimination). If
Ms. Welsh can satisfy each of these elements, the bur­
den shifts to the District to articulate a legitimate,
non-discriminatory rationale for its actions. McCoy,
492 F.3d at 557. Once the District does so, the burden
shifts back to Ms. Welsh to create a genuine question
of material fact that precludes summary judgment on
each of the District’s stated rationales See id.
The District does not contest that Ms. Welsh is a
member of all three protected groups and is qualified
for her position as a teacher. Instead, the District ar­
gues that Ms. Welsh cannot demonstrate that she
suffered an adverse employment action and cannot
demonstrate that she was treated less favorably than
other similarly situated employees. Even if she could

28a
establish a prima facie case, the District argues that
Ms. Welsh cannot establish pretext on her discrimina­
tion claims.
Ms. Welsh argues that the following are adverse
employment actions: (1) “the unwarranted use of a
TINA”; (2) refusal to remove the TINA from Ms.
Welsh’s professional record; (3) failure to write a rec­
ommendation letter; (4) Ms. Pike’s loud instruction for
Ms. Welsh to feed her fish; (5) continuing to monitor
and assess Ms. Welsh.2
In the Fifth Circuit, “only ‘ultimate employment
decisions’ qualify as the adverse employment actions
necessary to establish a prima facie case of discrimina­
tion.” Washington u. Veneman, 109 F. App’x 685, 689
(5th Cir. 2004). An adverse employment decision must
be a “tangible employment action that constitutes a
significant change in employment status, such as hir­
ing, firing, failing to promote, reassignment with sig­
nificantly different responsibilities, or a decision
causing a significant change in benefits.” Lopez v.
Kempthorne, 684 F. Supp. 2d 827. 855 (S.D. Tex. 2010)
(quoting Burlington Indus, v. Ellerth, 524 U.S. 742, 764
(1998)). The following are examples of actions that have
not been adverse employment actions: “reprimanding
2 Ms. Welsh also argues these actions rise to the level of a
constructive discharge. But constructive discharge occurs where
an employee was forced to involuntarily resign. Haley v. Alliance
Compressor LLC, 391, F.3d 644, 649-51 (5th Cir. 2004). Ms. Welsh
has not cited any cases of constructive discharge where the em­
ployee remains in her same job and position, and this Court does
not adopt that theory here.

29a
for reading on the job, denying the use of a floor heater,
requiring an employee to keep a task list of daily du­
ties, rude behavior from supervisors, undeserved poor
performance ratings, denying a performance award,
scheduling training on a Holiday Program day, threat­
ening disciplinary action, disclosing personal infor­
mation on an organizational chart, denying adequate
work assignments to fill nine-hour work day, and re­
moving items form the employee’s desk and then later
replacing them.” Washington, 109 F. App’x 685, 689
(5th Cir. 2004) (citing Hernandez u. Crawford Bldg.
Material Co., 321 F.3d 528, 532 (5th Cir. 2003).
The actions that Ms. Welsh complains of, while
they may be frustrating to endure, are exactly the
types of things that the Fifth Circuit does not consider
an adverse employment action. Reprimands and low
evaluations that could lead to missed pay increases are
not “ultimate employment decisions.” Mattern v. East­
man Kodak Co., 104 F.3d 702, 708 (5th Cir. 1997), ab­
rogated in part by Burlington N. & Santa Fe Ry. Co. v.
White, 548 U.S. 53 (2006). Ms. Welsh’s discrimination
claims fail because she cannot raise an issue of fact
as to whether she suffered an adverse employment
action.
Ms. Welsh tries to construe the adverse employ­
ment action as the denial of a promotion. Burlington
Indus., Inc. v. Ellerth, 524 U.S. 742, 761 (1998) (“In the
context of this case [of a plaintiff refusing employer’s
sexual advances], a tangible employment action would
have taken the form of a denial of a raise or a promo­
tion”). Ms. Welsh argues that a TINA on her record

30a
prevents her from being promoted to an administrative
position. Ms. Smith acknowledged that a TINA would
have to be explained when applying for jobs within the
District, Smith Dep. at 49:16-23, but there is no evi­
dence that a TINA disqualifies a candidate from a pro­
motion. Nor did Ms. Welsh identify a promotion that
she sought and was denied.
Even if Ms. Welsh could make a claim for denial of
promotion by way of the TINA on her record and fail­
ure to provide a recommendation letter, the District
has articulated non-discriminatory reasons, and Ms.
Welsh cannot establish discriminatory pretext. As a
non-discriminatory reason for the TINA, the District
showed that Ms. Welsh failed to timely respond to par­
ent e-mails in accordance with District policy. As a
non-discriminatory reason for the principal’s failure to
provide Ms. Welsh with a letter of recommendation, the
District suggested the principal forgot her request. Ms.
Welsh has offered no evidence of why these actions
would be pretext for national origin, sex, or age dis­
crimination.
b. Retaliation
In order to succeed ornher retaliation claim, Ms.
Welsh must establish that (1) she engaged in activity
protected by Title VII, (2) the District took adverse ac­
tion against her, and (3) a causal connection exists be­
tween the protected activity and the adverse action.
Zamora u. City of Houston, 798 F.3d 326, 331 (5th Cir.
2015).

31a
For the purposes Of Title VII’s anti-retaliation pro­
vision, adverse actions do not need to be ultimate em­
ployment decisions. Burlington N. & Santa Fe Ry. Co.
v. White, 548 U.S. 53, 68 (2006); Donaldson v. CDB Inc.,
335 Fed. Appx. 494,506 (5th Cir. 2009). To demonstrate
that an employer has taken an adverse employment
action, a plaintiff must show that a reasonable em­
ployee would have found the challenged action materi­
ally adverse, which in this context means it well might
have dissuaded a reasonable worker from making or
supporting a charge of discrimination.” Burlington N.,
548 U.S. at 68 (internal quotations omitted). The stand­
ard is objective, but “the significance of any given act
of retaliation will often depend upon the particular cir­
cumstances.” Id. at 68-69. To determine whether an ac­
tion is materially adverse, courts “look to indicia such
as whether the action affected ‘job title, grade, hours,
salary, or benefits’ or caused ‘a diminution in prestige
or change in standing among . .. co-workers.’ ” Paul v.
Elayn Hunt Corr. Ctr., 666 F. App’x 342, 346 (5th Cir.
2016) (quoting Stewart v. Miss. Transp. Comm’n, 586
F.3d 321, 332 (5th Cir. 2009). Trivial harms do not con­
stitute adverse employment actions. Burlington N,
548. U.S. at 68. Title VU’s anti-retaliation provision
does not protect employees from “petty slights, minor
annoyances and simple lack of good manners.” Id. For
example, the Fifth Circuit has found that the following
are not adverse employment actions: being reassigned
to a location that “modestly” increased the employee’s
commute, Stringer v. N. Bolivar Consol. Sch. Dist., No.
17-60282, 2018 WL 1192999, at *7 (5th Cir. Mar. 7,
2018); being instructed to wear the incorrect uniform,

32a
Paul, 666 F. App’x at 346; being denied vacation leave,
id. at 346-47; and experiencing a two-day temporary
delay in receiving pay, id at 347.
The District does not contest that Ms. Welsh en­
gaged in protected conduct—the first element of her
retaliation claim—when she filed her charge of dis­
crimination in 2012 and amended it in 2014. Instead,
the District argues that her retaliation claims fail be­
cause Ms. Welsh cannot demonstrate an adverse em­
ployment action and, even if she could, the multiple
months between events render a causal connection im­
possible.
Ms. Welsh’s protected conduct of filing and amend­
ing EEOC charges occurred on August 15, 2012, June
19, 2014, and January 17, 2015. She brought her state
court litigation on September 26, 2014. The timeline is
the only causal link Ms. Welsh provides between the
protected action and the allegedly adverse employ­
ment actions, which is particularly problematic where
Ms. Welsh has not established that Ms. Smith, Ms.
Pike, or Mr. Edwards even knew of her protected activ­
ity. “Close timing between an employee’s protected ac­
tivity and an adverse action against filer] may provide
the ‘causal connection’ required to make out a prima
facie case of retaliation.” Paul v. 666 F. App’x at 348
(citations omitted). “[T]he mere fact that some adverse
action is taken after an employee engages in some pro­
tected activity will not always be enough for a prima
facie case.”Raggs v. Mississippi Power & Light Co., 278
F.3d 463, 471 (5th Cir. 2002). The entire TINA process
was set in motion by the events in the fall of 2013—

33a
over a year after the first EEOC charge and before the
other protected activities. And, while Ms. Welsh was
able to point to two e-mails that were timely sent, the
District recorded other e-mails and communication de­
lays as the basis of the TINA, contrary to Ms. Welsh’s
argument that the TINA process was based entire
on false allegations. The “feed your fish” comment oc­
curred about six months after the second EEOC
charge, and could not be construed as an adverse em­
ployment action. Even if these were adverse actions,
the causal link is insufficient to create an issue of ma­
terial fact. Atkins u. Se. Cmty. Health Sys., 712 F. App’x
388, 391 (5th Cir. 2017) (ten-month gap between pro­
tected activity and adverse employment action was
insufficient to establish causal nexus without any fur­
ther evidence).
This leaves the principal’s lack of response to Ms.
Welsh’s request for a letter of recommendation and the
District’s refusal—in its internal grievance process—
to grant Ms. Welsh’s request that the TINA be removed
from her file. Those events occurred in July 2014 and
October 2014, respectively, and are not temporally dis­
tant from her June 2014 EEOC amendment and Sep­
tember 2014 filing of Welsh I. Ms. Welsh admits she
“didn’t follow through” with her pursuit of a letter of
recommendation. Welsh Dep. at 92:21. She also did
not pursue an appeal of her internal grievance. The
particular circumstances here suggest that Ms. Welsh
wanted to advance to an administrative position, and
that she personally viewed the TINA and letter as rel­
evant to her chances of success. However, she has not

34a
sought a promotion since before 2013, and the context
here demonstrates that Ms. Welsh suffered no adverse
impact as a result of the allegedly adverse actions. See
Stewart, 586 F.3d at 332 (placement on administrative
leave “cannot be said to be a ‘petty slight’ ” but under
circumstances where the employee suffered no adverse
impact because of the leave, it was not an adverse ac­
tion). Ms. Welsh’s title, hours, salary, and benefits did
not suffer. Neither the principal’s non-responsiveness
nor the initial outcome of the grievance process is an
adverse employment action.
V.

CONCLUSION

For the reasons set forth above, Defendant’s Mo­
tion is GRANTED.
IT IS SO ORDERED.
SIGNED at Houston, Texas on the 3rd of July.
2018.
/s/ Keith P. Ellison
KEITH P. ELLISON
UNITED STATES
DISTRICT JUDGE

35a
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
GUADALUPE A. WELSH, §
§
§

Plaintiff,
v.
FORT BEND ISD
SCHOOL DISTRICT,
Defendant.

§ CIVIL ACTION NO.
§ 4:15-cv-1275
„
§
§
§

FINAL JUDGMENT
(Filed Jul. 19, 2018)
Plaintiff Guadalupe Welsh brought this suit
against Defendant Fort Bend Independent School Dis­
trict alleging violations of Title VII and ADEA for dis­
crimination on the basis of her national origin, sex and
age, as well as for retaliation. Defendant filed a Motion
for Summary Judgment. (Doc. No. 39) The Court
granted this motion and ruled for Defendant on all of
Plaintiff’s claims on July 3, 2015. (Doc. No. 48.)
Pursuant to Federal Rule of Civil Procedure 58(a),
and for the reasons set forth in the Memorandum and
Order, final judgment is hereby ENTERED for De­
fendant.

36a
IT IS SO ORDERED.
SIGNED at Houston, Texas on this the 19th day
of July, 2018.
/s/ Keith P. Ellison
KEITH P. ELLISON
UNITED STATES
DISTRICT JUDGE

37a
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
GUADALUPE A. WELSH, §
§
§

Plaintiff,
VS.
FORT BEND ISD
SCHOOL DISTRICT,
Defendant.

§ CIVIL ACTION NO.
§ 4:15-CV-1275
§
§
§

ORDER
(Filed Mar. 13, 2019)
Plaintiff Guadalupe Welsh has filed a motion for
Reconsideration and for a New Trial (“Motion”). (Doc.
No. 51.) Plaintiff argues that the Court’s order grant­
ing Defendant summary judgment on all Plaintiff’s
claims was manifest error. (Doc. No. 48.) The Court re­
affirms its previous finding that, under these circum­
stances, placement on a Teacher in Need of Assistance
plan does not qualify as an adverse employment ac­
tion. See Banks v. East Baton Rouge Parish Sch. BcL.,
320 F.3d 570 (5th Cir. 2003) (“[A] decision made by an
employer that only limits an employee’s opportunities
for promotion or lateral transfer does not qualify as
an adverse employment action under Title VII.”); Mattern v. Eastman Kodak Co., 104 F.3d 702, 708 (5th Cir.
1997) (refusing to find “adverse employment actions”
to include “events such as disciplinary filings, supervi­
sor’s reprimands, and . .. poor performance by the

38a
employee”), abrogated in part on other grounds Bur­
lington N. & Santa Fe Ry. Co. v. White, 548 U.S. 53
(2006); Lopez v. Kempthorne, 684 F. Supp. 2d 827, 855
(S.D. Tex. Jan. 14, 2010) (collecting cases finding that
the following do not constitute an adverse employment
action: “documented reprimands, though potentially
affecting future employment decisions,” “negative per­
formance evaluations, even if they were not deserved,”
and “disciplinary write-ups”).
Plaintiff’s Motion is DENIED.
IT IS SO ORDERED.
SIGNED at Houston, Texas, on this the 12th day
of March, 2019.
/s/ Keith P. Ellison
KEITH P. ELLISON
UNITED STATES
DISTRICT JUDGE

Additional material
from this filing is
available in the
Clerk's Office.

